DADE COUNTY FEDERAL CREDIT UNION
1500 NW 107th Ave • Doral, FL 33172
(305) 471-5080 • (800) 299-7147
Fax: (786) 845-3150 • www.dcfcu.org

VISA PLATINUM AND VISA SECURED
APPLICATION AND SOLICITATION DISCLOSURE

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

8.65% to 17.90% when you open your account, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Visa Secured

13.65% to 17.90%

APR for Cash Advances

This APR will vary with the market based on the Prime Rate.
Visa Platinum
8.65% to 17.90% when you open your account, based on your creditworthiness. This APR
will vary with the market based on the Prime Rate.
Visa Secured
13.65% to 17.90%
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

Visa Platinum
8.65% to 17.90% when you open your account, based on your creditworthiness. This
APR will vary with the market based on the Prime Rate.
Visa Secured
13.65% to 17.90%
This APR will vary with the market based on the Prime Rate.

Penalty APR and When it Applies

None

Minimum Interest Charge

None

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We do not charge you interest on
purchases if you pay your entire balance by the due date each month.

For Credit Card Tips from the
To learn more about factors to consider when applying for or using a credit card, visit the website of
Consumer Financial Protection Bureau the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

Fees
Transaction Fees
• Cash Advance Fee
• Foreign Transaction Fee

$5.00 or 2.00% of the advance (Maximum Fee: $100.00)
1.50% of each transaction in U.S. dollars

Penalty Fees
• Late Payment Fee
• Over-the-Credit Limit Fee
• Returned Payment Fee

Up to $35.00
Up to $35.00
Up to $35.00

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”
Effective Date. The information about the costs of the card described in this application is accurate as of January 1, 2010. This information may
have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
$25.00 or the amount of the required minimum payment, whichever is less. In the event you fail to make a payment
on time in any of the six (6) billing cycles following the violation, you will be charged $35.00 or the amount of the
required minimum payment, whichever is less.
Over-the-Credit Limit Fee $25.00 or the amount of the transaction exceeding your credit limit, whichever is less. In the event you exceed your
credit limit in any of the six (6) billing cycles following the violation, you will be charged $35.00 or the amount of the
required minimum payment, whichever is less, if new balance less any fees is more than $1.00 over your credit limit.
Returned Payment Fee
$25.00 or the amount of the required minimum payment, whichever is less. In the event a payment is returned in
any of the six (6) billing cycles following the violation, you will be charged $35.00 or the amount of the required
minimum payment.
Replacement Card Fee
$10.00 per card
Statement Copy Fee
$2.00
Rush Fee
$25.00
© CUNA MUTUAL GROUP, 2009, ALL RIGHTS RESERVED

1-1V2CYU01
CCM000
MXC400

